                      UNITED STATES DEPARTMENT OF EDUCATION

                                   OFFICE OF INSPECTOR GENERAL 

                                       61 FORSYTH STREET, ROOM 18T71 

                                           ATLANTA, GEORGIA 30303


       Telephone: (404) 562-6470                                            Fax: (404) 562-6509



                                         March 12, 2003

                                                                           ED-OIG/A04-C0014
Dr. William H. Turner, President
Kentucky State University
Hume Hall, Suite 201
Frankfort, Kentucky 40601


Dear Dr. Turner:

This Final Audit Report (Control Number ED-OIG/A04-C0014) presents the results of
our audit of Kentucky State University’s (KSU) compliance with the administration of
the Title III, Part B, Strengthening Historically Black Colleges and Universities
Program. Audit coverage included the period October 1, 1998, through September 30,
2001. The audit objectives were to determine whether KSU complied with Education
Department General Administrative Regulations (EDGAR) and Departmental laws and
regulations regarding Title III cash management and grant expenditures.

In its written response to the draft report, KSU concurred with the finding except for the portion
relating to the lack of documentation for 189 expenditures of $100 each ($18,900). KSU stated
that it subsequently identified supporting documentation and would provide it during the post
audit review. KSU agreed that there was no supporting documentation for the remaining
questioned expenditures totaling $9,183 ($9,283 less $100 for Individual D) and requested a
waiver from repayment of those funds because of the small amount. KSU’s response to the draft
report and our comments to the response are summarized in the Audit Results section of this
report.

                                     AUDIT RESULTS 



Finding No. 1 – KSU Did Not Always Document Title III Grant Expenditures
KSU generally met the Title III, Part B, cash management requirements, but it did not always
meet the record keeping requirements for grant expenditures. KSU accounting controls did not
always ensure that grant expenditures were fully documented and supported. As a result, we
identified unsupported expenditures totaling $28,083.
Dr. William H. Turner                                                             Page 2 of 10
ED-OIG/A04-C0014




Federal regulations at 34 C.F.R. § 75.730 regarding grant records state:

        A grantee shall keep records that fully show:
           (a) The amount of funds under the grant;
           (b) How the grantee uses the funds;
           (c) The total cost of the project;
           (d) The share of that cost provided from other sources; and
           (e) Other records to facilitate an effective audit.

Also, Federal regulations at 34 C.F.R. § 74.53(b) regarding retention and access requirements for
grant records state:

        Financial records, supporting documents, statistical records, and all other 

        records pertinent to an award shall be retained for a period of three years 

        from the date of submission of the final expenditure report . . . . 


There were 6,699 grant expenditures totaling $3,618,657 between October 1, 1998, and
September 30, 2001. We reviewed a judgment sample of 80 expenditures totaling $359,008.
KSU did not have sufficient supporting documentation for 6 of the 80 expenditures totaling
$9,283 as follows:

      Questioned   Recipient of
       Amount      Expenditure                            Comments
           $ 4,000 Individual A No copy of the check or other documentation to support the
                                expenditure.
             2,340 Individual B No travel itinerary or travel voucher showing where the
                                individual traveled to and how the travel related to Title III.
                                Also, no receipt for rental car.
             1,176 Champs       No copy of the check or other documentation to support the
                                expenditure.
               855 Individual C No receipt or other documentation to support airfare
                                expenditure.
               812 Diners Club No documentation that airfare charge was related to
                                Title III. Documentation included only a credit card bill
                                with $812 airfare expenditure.
               100 Individual D Documentation included only a copy of the check with the
                                notation “workshop” on the check stub. Also, no
                                documentation of how the workshop related to Title III.
           $ 9,283              Total Unsupported Expenditures

There was either insufficient documentation to show that these expenditures related to Title III
grant activities, or University personnel could not locate documentation to support these
expenditures. The six expenditures with insufficient supporting documentation occurred during
the period October 1, 1998, and August 31, 1999.
Dr. William H. Turner                                                            Page 3 of 10
ED-OIG/A04-C0014




The questioned expenditure to Individual D for $100 showed only a person’s name as the
expenditure description. We identified an additional 188 such expenditures of $100 each. We
requested supporting documentation for the 188 expenditures showing only a name as the
expenditure description. KSU officials could not provide additional supporting documentation
for these expenditures. Therefore, we also questioned these 188 expenditures of $100 each,
totaling $18,800. The majority of these unsupported expenditures occurred during the period
October 1, 1998, through September 29, 2000. As a result, we questioned unsupported costs
totaling $28,083 ($9,283 + $18,800).

KSU accounting controls in place during fiscal years 1998, 1999, and 2000 were not
effective to ensure supporting documentation was maintained for Title III expenditures.
Two different audit firms expressed no opinion on KSU’s financial statements in the
Office of Management and Budget (OMB) Circular A-133 audit reports for fiscal years
ended June 30, 1999 and 2000.

The OMB Circular A-133 audit report for fiscal year ending June 30, 1999, stated that
KSU’s “[a]ccounting records were incomplete and inadequate.” The auditors were
unable to obtain written representations from KSU management as required by generally
accepted auditing standards. In addition, the fiscal year 2000 audit firm was unable to
perform compliance tests on major ED programs due to a lack of compliance with grant
documentation and record keeping requirements.

The OMB Circular A-133 audit report for fiscal year ending June 30, 2001, gave an
unqualified opinion on the basic financial statements. This improvement was primarily
attributed to the hiring of a new Comptroller in January 2001 and a new Director of
Financial Reporting in April 2001.

An example of the internal control deficiencies is illustrated by comments from the KSU
business office staff. The business office staff stated that in 1998 and 1999 the accounting staff
misplaced or lost supporting documents when Title III expenditure requests and documentation
were transferred from one approving official to another. The questioned costs in this report are
evidence of the accounting control problems.

RECOMMENDATIONS

We recommend that the Assistant Secretary for the Office of Postsecondary Education require
KSU to:

1.1 	 Repay $28,083 in questioned costs to the Department of Education for the Title III grant
      expenditures that did not have sufficient supporting documentation.

1.2 	 Perform either a 100 percent review of grant expenditures or use a statistically valid sample
      approach to determine the existence of other questionable expenditures for the audit period
      of this report.
Dr. William H. Turner                                                           Page 4 of 10
ED-OIG/A04-C0014




1.3 	 Provide the results of the expenditure review and return, if necessary, any unsupported
      costs to the Department.

1.4 	 Develop and implement accounting controls to ensure the maintenance of sufficient
      documentation to support Title III expenditures.

KSU RESPONSE

KSU concurred with the finding except for the portion related to Individual D for whom there
was no documentation to support the $100 expenditure. KSU stated that it subsequently
identified supporting documentation to substantiate the transaction and the similar 188
transactions that were identified, and will provide the documentation during the post audit
review. KSU stated that it believed the total for the finding to be $9,183, and requested a waiver
of that repayment due to the minor amount.

KSU agreed that Title III programmatic and accounting controls in place during fiscal years
1998, 1999, and 2000 were not as effective as desired to ensure supporting documentation was
maintained for Title III expenditures. To strengthen its controls, KSU hired additional staff to
administer the Title III programs and ensure the proper review and approval of expenditures and
the maintenance of sufficient documentation to support all KSU expenditures.

OIG COMMENTS

Based on the written response to the draft report, we did not change the finding or
recommendations. The only documentation available to support 189 expenditures of $100
each was a check with the notation “workshop” on the check stub. In addition, there was no
documentation of how the workshop related to Title III. This finding was discussed with KSU
officials during the audit and no further explanation or documentation was provided. KSU
should repay the cited $28,083 and conduct a review of all grant expenditures and report the
results to the Office of Postsecondary Education.

                                      BACKGROUND 


Kentucky State University (KSU), founded in 1886, is a 4-year, State-supported co-ed liberal arts
university. KSU awards the Bachelor of Arts, Bachelor of Science, Associate in Applied
Science Technology, Associate of Arts, and Master of Public Administration degrees. KSU had
an enrollment of about 2,200 and is accredited by the Southern Association of Colleges and
Schools.

KSU is a Title III, Part B, grant recipient. KSU also participates in the following Title IV
programs: William D. Ford Direct Loan, Federal Pell Grant, Federal Supplemental Education
Opportunity Grant, and Federal Work Study.
Dr. William H. Turner                                                           Page 5 of 10
ED-OIG/A04-C0014




                        OBJECTIVES, SCOPE, AND METHODOLOGY 


The audit objectives were to determine whether KSU complied with EDGAR and Departmental
laws and regulations regarding Title III cash management and grant expenditures. Audit
coverage included the period October 1, 1998, through September 30, 2001.

To accomplish the audit objectives, we performed the following:

• 	 Reviewed applicable regulations.
• 	 Reviewed the latest independent auditors’ OMB Circular A-133 audits and financial
    statements for the years ended June 30, 1999, 2000, and 2001.
• 	 Interviewed KSU officials responsible for cash management and grant expenditures.
• 	 Reviewed cash management procedures by verifying KSU records of fund receipts with the
    Department’s draw down of records in the Grants Accounting and Payment System (GAPS),
    comparing GAPS draw down records to KSU program expenditures, and verifying total
    expenditures to the amounts reported in the OMB Circular A-133 audit reports. We
    reviewed all Title III drawdowns and verified that the amounts drawn down met immediate
    cash needs (e.g., funds were expended within 3 days).
• 	 Reviewed grant expenditures by selecting a judgment sample of 80 of the 6,699 grant
    expenditures for non-payroll items such as travel and payments to vendors for goods and
    services. We judgmentally selected high-cost items, amounts paid to non-traditional vendors
    that would not normally be involved in Title III transactions with a postsecondary institution
    (e.g., purchases from a sporting goods store), and travel costs paid to KSU employees.
• 	 Verified that the sampled grant expenditures were allowable and properly supported and
    documented.
• 	 Reviewed all grant expenditures of $100 that showed only a name as the expenditure
    description.
• 	 Contacted and obtained data from Department of Education Title III officials in Washington,
    DC.
• 	 Performed physical inventory of long-term assets (computers, printers, and video equipment)
    and artifacts purchased to support approved Title III activities.

We relied on computer-processed data contained in KSU’s computerized accounting system.
We used grant award and disbursement data from the Department’s Grants Accounting and
Payment System (GAPS) to corroborate information obtained from KSU. We did this by
comparing Departmental records of program and grant awards, drawdowns, and disbursements
with KSU data. We also held discussions with KSU officials to gain an understanding of the
processes for requesting and drawing down Federal funds, and for its accounting of revenue from
Department programs and grants. Based on these tests and assessments, we concluded that the
KSU data were sufficiently reliable for use in meeting the audit objectives.
Dr. William H. Turner                                                            Page 6 of 10
ED-OIG/A04-C0014



Audit work was conducted during the period June 17, 2002, through October 11, 2002. An exit
conference was held with KSU officials on October 30, 2002. The audit was conducted in
accordance with generally accepted government auditing standards appropriate to the scope of
review described above.

                    STATEMENT ON MANAGEMENT CONTROLS 


As part of our review, we assessed the system of management controls, policies, and practices
applicable to KSU’s administration of Title III cash management of funds and grant
expenditures. Our assessment was performed to determine the level of control risk for
determining the nature, extent, and timing of substantive tests to accomplish the audit objectives.

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in the management controls.
However, our assessment disclosed management control weaknesses that affected KSU’s ability
to comply with financial management requirements. The weaknesses include the failure to
properly document grant expenditures. These weaknesses and their effects are fully discussed in
the AUDIT RESULTS section of this report.

                              ADMINISTRATIVE MATTERS 


If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on the audit:

                        Sally L. Stroup
                        Assistant Secretary
                        Office of Postsecondary Education
                        Department of Education
                        1990 K Street, NW, Room 7115
                        Washington, D.C. 20006

Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations contained
therein. Therefore, receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom of Information Act (5 U.S. C. §552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.
Dr. William H. Turner                                                            Page 7 of 10
ED-OIG/A04-C0014



If you have any questions or if you wish to discuss the contents of this report, please contact me
at 404-562-6477 or Assistant Regional Inspector General Mary Allen at 404-562-6465. Please
refer to the Control Number ED/OIG A04-B0015 in all correspondence relating to this report.

Sincerely,

J. Wayne Bynum

J. Wayne Bynum
Regional Inspector General
   for Audit, Region IV




Attachment
Dr. William H. Turner                                                                                                          Page 8 of 10
ED-OIG/A04-C0014



ATTACHMENT – KSU’s WRITTEN RESPONSE TO THE DRAFT REPORT




                                                 State lhriversit)1
                                        Kentucky Sf:lte University
                                                       H _ Hln,
                                                      H_           s.ite 201
                                                             Hill, S'Hc
                                                    FranUon,   Kclltlldt)'..oro]
                                                    FrankfOll, "" • • d:)' -40601




          la.nuaJy 30, 2003
          h.nuary


          1. W.~Byrwm
          J. Wayne Bynum
          Rqional lhlSpCC'lOf
          Rq;ional             C.el'1l:n.1l tOr
                    nspcr:'lOf Genera       mr Audit
          U.S.
          U.S . Ocpartment   ofEd ucacioo
                Oepartmelll.n(Eduocacion
          Office
          O           lnspcclor General
             ffice of lmpcclOT  Genera l
               F~ Strccl,!loom
          6611 Forsyth  SUCCl, !loom 11T71
                                     \81"71
           Atlanta, GA 30303

           E()..()k;IA04-C001"
           ED-OfGIA04-C0014

           Dear Mr. Bynum:
           ee.Mr.   D~

           We have   reviewed your Dna
               have: reviewed)'OW"    DAft A     .. 4it Rtpel"l
                                                Adit                   Oa::c:mber 13, 2002. orllle
                                                        ~POI1 dated December                    ofllle audil:
                                                                                                         ludil o(Ktntot"ky
                                                                                                               orKl:ntocky
           S~c Unive-nlity'
           Stale  Univ.::-nlity's5 (KSU) compliance with tthe             administration of Inc
                                                                      he admini:llration            the Title
                                                                                                          Tille III,
                                                                                                                Ill, Part 8,
           Stn:ngthening   1I i.~orically Black Colleges IUld
           Stttngthening lTi.qorically                                                        fi.lt tbe period October I.
                                                              Il1KI Univers ilit ies Program. for                         I,
           J99R through Scptembcr
           1998           Sep!embcr 30, ) 0 , 2001 . As  reque5ted... we '"'
                                                      A5 requested..     we providing aII rcspoft!lle
                                                                                            response to)'(l1D'
                                                                                                        to yalD' repon.

           Yow findings
           Your            rdkded lhat
                  findiogs rcflocted  that KS
                                            K.<;U  ~lly met Tide:
                                                U gconlly         TiI ~ tn,       B. c-..
                                                                        fIl. Pan B,  cash mIlnagmJcnl    ~irerrv:nl'"
                                                                                          tnanagcmcnl noquinmenu"
           but it
               " did not alwaY'               t be rccmd
                                      mc:et tbe
                             a1wa)'lJ !ned                   ~ requin:mcnu
                                                   record ..keeping   requiratx:nu lOr gJ1InII
                                                                                          gnlniII expellllinun.
                                                                                                  expcndiullu . KSU
           programmalic and .,;:counllna
           rwogrammalJc                        CQr'Dob did not
                                llIXOunlioa corUob               always ensun:
                                                             nol alwaY'   en$I.DC thai gnmt expendilurcs
                                                                                              expenditures wert:
                                                                                                            well: fufully
                                                                                                                       lly
           docwnenled and suppotIcd..
           documented                        As a result, )'Our
                              supflOI1 ed... A11          yalD' staff  mntifled unsupponcd
                                                                 stafT identified                 elqlClldit~ toUling
                                                                                  unsupported cxpmdill6CS       totIIling
           $211,083.
           $211.083.

           Durina
           Durin&   the audit..     did rmt
                        audi'!o KSU d~      have
                                        not ha ve ..... mete'"    sul"f")rting
                                                        mcic: ....... pporting docume    ntation fOl"
                                                                               doc....., ,,tation     s ix. "Xf1C"ndilWl:ti
                                                                                                  fIX :six  c>q:ICndillU'l:~
           totalin& i9,283 as IOIIoW!l:
           lOtD.]in&




                            ~ _ .s.
                                       OfflC
                                      ___      ..___ _"""""'_-""_Wot
                                       Offic ..: (502) j 91-6261)
                                               ~
                                                        j 91-62(1)FIJI: (502) S97-M9Cl
                                                                              j97-M91l
                                                                                       ...... _
Dr. William H. Turner                                                                                                              Page 9 of 10
ED-OIG/A04-C0014




ATTACHMENT – KSU’s WRITTEN RESPONSE TO THE DRAFT REPORT


                                                                                                             ,..20(3
                                                                                                             ",20(3




                                                        .=
                 ~                   RtdpRatof                                        C _ _ nlb
                    Aaoaal           EII~ih",
                      $ 4.000        Individual A                                                     10 support
                                                                   orlhe check 01" other doamiedation to IlUpport lhe
                                                                  ,~

                           2.340 Individual B    No tnoycl itinerary or travel voYCbcr iIhowing where the
                                                 individli8l trave led to and how the travel rewed 10 Title llI. III.



                                                                                                                 "'-
                                                 A,"" 00            lOr rental cae.
                           1. 176 a...n"".       No copy uflhe chc<:k tiT 01 ...... docwncnUllio" to!.U(ll'Ol1 the
                                                 c:xncndiwre.
                                  Individual C No ra;cipl 01" odw::r doc:umernation to support . .fare
                              '"                 expendilwt:.
                             &12 Dinen Club No OOcUDle&Qtion thai airfare chuge _.-eIaUd 10
                                                 Tille II
                                               I To"   III.  Documentation included only. aoxiil
                                                          I. OocUll1Cf1Ulion                  <nIdil cud
                                                                                                     card btU
                                                                                                           bi ll
                                                 with $812 airflrln:
                                                             airfiwc: expcoonure.
                                                                      cxpc:oditure.

                              '00    Individual D       Doa.mcl1l1lion included only a C(lJlY nfthe chock with the
                                                        notation "'Workshop~ on the chock!!tub. Also, no
                                                        doewncnlalion of bow lhe              related to Tille m.
                         S.                             Total UIIlilI

                  was either
           Thae WIllI
           There
                               "
                              insulTlCieru doaImentation
                       can:!" iflsumcient                     Iihow that thcse
                                           documentation to d-ow
                                                                                '"
                                                                                ndilures

                                                                         these elCpCnditures
                                                                                elCpCndi:1n5 R:lated     r..1e 111
                                                                                                     to T.1e
                                                                                             related 1(1
                  aclrvities, o.
           grant .:trvities,  or Univenity
                                  University personnel
                                              perooonnel eould
                                                         could DOtnot locate doc:urnentation
                                                                              docuJnentatKm to mpport
                                                                                                  support these
           ~ituccs. 1bc
           cxpc::ntitun;s. 11.: six cxpcnditl1rCS
                                    cKpcDdltures with  insurr... 1cn supponms
                                                  wilh insvlfacm     supponilJ8 documcntaiou   occurnxl dwing
                                                                                dQcUlDCOlaioo OQCum:d
           thepcriodOctoba- l , I99B,andAugust31
           theperiodOctoba-l       I998.and.August)I ., 1999,
                                                         I999.

           Tho: questioned elfpcndilUre
           TIw:             expenditure to Ird   Individll8l
                                                    ivid..., I 0  ~ $1()()
                                                               D fOr           .wed only a person'
                                                                            shuwod
                                                                      $ 100 .                  pa5On's" ruwnc
                                                                                                        name: 8!1as the
           cxpcrdit~ dcxript
           c:xpcndit~   dcKriptil;!lL         Slafl'idettiflCd an additional I S8 such expenditura
                                 il.m . Your Slaffidedirlcd                                expcnditura o f $l00
                                                                                                           $ I OO each.
                                                   ~rting OOcumelllation
           We coukl not provide additional supportins            OOculTllmWion forror thI:se upeodillutt. 1hIs.
                                                                                      these expcodilUtts.  1lIus. )'011
                                                                                                                   you
           am                ~ 188 cxpcrdilu.res
                 questioned th.::It:
           abo qucstionai                  ~ooitW1:S of SI         OO each. totaling
                                                                 SIOO         tou.ling $  18,BOO. As aII result, you
                                                                                        $18.800.                   YO II
           queslilo~d unsupported
           quc:srioned                                           ($9,283 + $18.8(0).
                                       COOls totaling $28.083 ($9,28)
                       unsupporte d COlts                                   $ 18.8(0).

                 COracUT with the findings
           We colICur                                        fOr the findina
                                            find ings except fo.              ro..
                                                                       find inj fOt' Individual D. D. We have !IlIbseQumtly
                                                                                                                    subscqucndy
           idCfltiflCd      ~rting documentation
           idcm ificrl supporting             documentlltion 1\00 SUMtanliatc lhis        tnlrJ5:aCtKm and lhe
                                                                                    Ihill transaclion                similar 188
                                                                                                               tho: sanilar  18 8
           1,,*,-'\aCIion~
           IrIIn.'lllction .... idel'lfirlCd
                                idcn(iflCd aandnd will provide dneuoncnullion
                                                                docuoncnuuiol'l dduring                             Accordingly,
                                                                                     uring post audit review. Acoomingiy,
           !he  Univtt'lily believes the: total for all f.ndings
           lbc Univcrsity                                                  to be S9.
                                                                fllldiDgs 10           183. and WI:
                                                                                  S9.183.             reqtJeS1 aII waivei'
                                                                                                  we rcqllCS1      waiver of that
                                                                                                                             thai
           repayment due 10
           lqIU)TI'Ie'lt           to its minor amDWlt.
                                                   amoum.

               agree that
           We avec    thai KSU T  nle        ptOgI'*'I1millic and accountill8
                                    itle III progn.nmalic                          controh in place ~ fl5lCal
                                                                    lIIXOuntil18 COIUOk                               fl5lCBl years
                         and 2000 ~ 1101.
           19911. 1999. lU'Itl
           1998.                                    effective as
                                            DOt as effca;""        oJc:sircd to CIJliUn;
                                                               u desired                  ~ documcrutiun
                                                                                 craun: supporting           documentation was  _
           maiPtainod
           maiotainod for   Tille III
                        fM 'nle   111 cxpc:ndilW1::S-       ~heII our
                                       cxpcndinwcs.. To wcng1hen                            C<,I ....... b, a Vice Praidcnt
                                                                                T'ltlc 111 colUOls,
                                                                           out" ,ltle:                               Praidcnl for
           AdVllllCCmcn l was hired
           AdVllllCCmcnt         hiroJ in JJ1.lI1C,1999                         n:spCIMibilitics. beginning in Oaobn
                                             o.u1C,l999 wilh part of hq n:spunsibilities.,                                 ~obeT
           1999,
           1999. to administer our Tide   Title 111   progrnms. To strengthen
                                                 III pognms.               strengt!Jcn ouro ur 8CODWItiDg
                                                                                                   8CCOWlting col'lfrols.
                                                                                                                   con(rols. new
           ~ I 'WCI'C
           ptnOID:l   WCI'C hired in the following
                                            fOllowing key posil:ionII;               Fi........ >al otr.:a-
                                                             po»il:ionJ; •a Chief Financial                        June: 2000; an
                                                                                                      ()ff'JCtt in Juno;:
           Internall Audil:or
           Interna               <k1obcr 2000; a Campl
                     Audilor in Oc1.r                  Campt..,l~
                                                               f<)l~ in January 2001 am        and •a Direclo
                                                                                                           Directorr of Financial
                                                                                                                          Fina.ncial
Dr. William H. Turner                                                                                                                                 Page 10 of 10
ED-OIG/A04-C0014



ATTACHMENT – KSU’s WRITTEN RESPONSE TO THE DRAFT REPORT


                                                                                                                              raac 3 of3
                                                                                                                              ,....,30'3



          Reporting in April 200
                             2001.
                                 1. With ,""
                                         thoe hiring
                                              hiring o
                                                     of f
                                                        .hese     pc: ...... nnc:1,
                                                          . _ key pc                   Univer" ity has developed
                                                                             nnel. the Univer5ity
          and ionplemcnted            programmat ic and
              jmplcmcnted appropriate pn:>grarruntlolic      ac<:ounting contmis
                                                        otnd accounting          to ensure the proper ...,view"
                                                                         eantmls 1<>
              lIIppf'U ...... !l of expenditW"Q
          and appro                                            maimcnanee of s~uff'ocienl
                                    expendit.....",. and the maimenan<>e           uffICient documentalion .0 support. ..
                                                                                                           to !nJPP<lrt ,,11
                                                                                                                          11
          University e"pcnd
          Univer$ity     expend itures.                   Tille nl expendilurcs..
                                                inclwing Title"J
                                     il ure ... inchoding          expendn....."..

          A
          1\"" proof              posilive .........
                             the positive
                 pornoof of lhoc:                    1.$ of thc:$e
                                               result"                 cha",&,,". for the OMD Circular 1\· 1)3
                                                               the$<: cN",!'.e",                                           133 ..       report fix
                                                                                                                                   udil ""f'On
                                                                                                                                 "udit              to..
          lisco!
          tiscal year ending June 30,         3U. 2001. the   \b..: Un;V\..'r.Iity
                                                                    Un;V\.--nity n:caved             unqualified opinion on !he
                                                                                    " ,caved an lII".Iqualifio:d                         the "",",i.e
                                                                                                                                               baloi(;
          iinaocial      Slat"-"",=,,l ,..
          IUlllIlC;"1 Sl.alc:men'      ~.   Additiocmally. "'" of
                                            Aciditic",,,lly.""           today. aII draft ...,pon
                                                                     o f loday.                rcpon fur
                                                                                                       fOr OMD Circular               A·133
                                                                                                                          C ircular A·13        audit
                                                                                                                                            3 "udit
          <.opun lOr l1scal
          ...,.,......    lisca l ye,.,.
                                  Y"_ "",",    i"l1 J"""
                                           cndi"l1           3 0 . 2(1(12 """ """'n
                                                    J .. "", 30.                        ~iy",d. which ""I"kx:ts
                                                                                """,,n rc.::;eivc<l.           rdlce. s 11_  u...r .he
                                                                                                                                   . he U niVC.'r.!l
                                                                                                                                          nivc:nily  ily
          will     reoeive an ""'Iualifted
          wilt receive           uoqualifoed opinion on Ihis        this "00;1
                                                                         audil u a. well. We can assure as:<Un: you thai KSU ha.         ha5.. taken
          great strides in impn.viR8                          op<:l"8.tions and arc
                                 improving its fiscal Optt8.;"ns                         ~in that int
                                                                                   om: cerlain!hal         .......... 1 conlrOls
                                                                                                        int","""                   ace in place 10
                                                                                                                        c:onlrOls are                 to
          ""k~uilJ"d
          .... f"~uW"d In...
                          tnc Univen<ity'.
                               Univer"l<ity '. aMC:lS                  in"'r~ of
                                                 MIO<:IS and the ink:r<:!rt>I      o fe><lernei
                                                                                       external entities.
                                                                                                  entnics.

           We apologize for    fOr the delay in getling
                                                   getting Ihis thill n:spoJl!lC
                                                                      respon..., 10 yo
                                                                                    you,
                                                                                       u . due 10
                                                                                               1<> lhe chRngc of inl""";,.,
                                                                                                   the change     inte rim
                        ~ al KSU efT"".;""
           Presidents here
           President.                  efTQC.ive Janwuy
                                                  J..........-y I, 2003. If you ha_
                                                                I. 200).                            q~io..,. or cune
                                                                                  haw: any further questions    CU"""""""',
                                                                                                                     •.".."",
           plealJe do oot
           please     r1oC)( hesitate.o
                             hesitale.o "COntlK"l
                                          ..n1act me.

           Sincen:ly.
           Sincerely.



             ~~        TIUTIOI."1"
           William H . Turner
           Pre~ident
           Pre~idenl

               lIinficd McDuftic
           Cc: llinficd     M cDu ftk
               William Pennell
               Mar<:us Webb
               Marcus
               w.......... Long
               Wanda
               Lee Eppinge,
                               REPORT DISTRIBUTION LIST

                              Control Number ED-OIG/A04-C0014



                                                                           Copies
Auditee
Dr. William H. Turner                                                         1     

President 

Kentucky State University 


ED Action Official
Sally Stroup                                                                  1     

Assistant Secretary

Office of Postsecondary Education 


Other ED Officials (electronic copy)
Audit Liaison Officer, Office of Postsecondary Education                      1

Chief of Staff, Office of the Secretary                                       1     

Deputy Secretary, Office of the Deputy Secretary                              1     

Under Secretary, Office of the Under Secretary                                1

Assistant Secretary, Office of Intergovernmental and Interagency Affairs      1

Office of General Counsel                                                     1         

Correspondence Control, Office of General Counsel                             1         

Chief Financial Officer, Office of the Chief Financial Officer                1

Post Audit Group, Office of the Chief Financial Officer                       1     

Legislation and Congressional Affairs                                         1     

Director, Office of Public Affairs                                            1     

Director, Communications                                                      1     

